                                       Ng to




        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Examination Report
Community Action Partnership of the
Greater Dayton Area –
Weatherization Assistance Program
Funds Provided by the American
Recovery and Reinvestment Act of
2009




OAS-RA-11-18                     September 2011
                                 Department of Energy
                                    Washington, DC 20585
                                       September 29, 2011


MEMORANDUM FOR THE ACTING ASSISTANT SECRETARY FOR ENERGY
               EFFICIENCY AND RENEWABLE ENERGY



FROM:                    Rickey R. Hass
                         Deputy Inspector General
                            for Audits and Inspections
                         Office of Inspector General
SUBJECT:                 INFORMATION: Examination Report on "Community Action
                         Partnership of the Greater Dayton Area − Weatherization Assistance
                         Funds Provided by the American Recovery and Reinvestment Act of
                         2009"
BACKGROUND

The attached report presents the results of an examination of the Community Action Partnership
of the Greater Dayton Area's (Dayton) implementation of the American Recovery and
Reinvestment Act of 2009 (Recovery Act) Weatherization Assistance Program (Weatherization
Program). The Office of Inspector General (OIG) contracted with an independent certified
public accounting firm, Lopez and Company, LLP, to express an opinion on Dayton's
compliance with Federal and State laws, regulations and program guidelines applicable to the
Weatherization Program. Dayton is a sub-recipient of the Department's Recovery Act
Weatherization Program funding for the State of Ohio.

The Recovery Act was enacted to promote economic prosperity through job creation and
encourage investment in the Nation's energy future. As part of the Recovery Act, the
Weatherization Program received $5 billion to reduce energy consumption for low-income
households through energy efficient upgrades. The State of Ohio received $267 million in
Recovery Act Weatherization Program funding, of which $18 million was allocated to Dayton.
The State of Ohio Department of Development was responsible for administering Weatherization
Program grants, including funds provided to Dayton.

CONCLUSIONS AND OBSERVATONS

Lopez and Company, LLP expressed the opinion that except for the weaknesses described in its
report, Dayton complied in all material respects with the requirements and guidelines relative to
the Weatherization Program for the period July 1, 2009 to October 31, 2010. However, the
examination found that Dayton:

   •   Procured weatherization materials, equipment, and services without evidence of a cost or
       price analysis or competitive bidding. As a result, Lopez and Company, LLP questioned
       $70,800 in costs associated with the procurements identified in its review;
                                                2

   •   Had a significant percentage of homes requiring re-work prior to completion.
       Specifically, 19 of 34 homes reviewed had final inspections that identified re-work
       needed. Examples of re-work needed included adding attic and basement insulation,
       sealing ductwork, and wrapping pipes for a water heater;

   •   Did not ensure that administrative employees' timecards reflected actual work activity
       and contained employee or supervisor approval signatures. As a result, Lopez and
       Company, LLP questioned $23,400 in these costs; and,

   •   Did not track and document the number of homeowners that received follow-up contact
       after weatherization services were provided, and failed to summarize the results of its
       follow-up program as required by the State.

The report makes recommendations to Dayton to improve administration of its Weatherization
Program. Dayton provided comments that expressed agreement with the recommendations and
provided planned and ongoing actions to address the issues identified. The State of Ohio also
concurred with the findings and recommendations in the examination report and agreed with
Dayton's planned corrective actions. While these comments and planned corrective actions are
responsive to our recommendations, the Department needs to ensure the planned actions are
taken.

RECOMMENDATIONS

We recommend the Acting Assistant Secretary for Energy Efficiency and Renewable Energy:

    1. Ensure appropriate action is taken by the State of Ohio to improve administration of
       Recovery Act Weatherization Program funds at the Community Action Partnership of
       the Greater Dayton Area.

We also recommend the Contracting Officer for the State of Ohio Weatherization Program
grants:

    2. Resolve identified questioned costs.

DEPARTMENT COMMENTS AND AUDITOR RESPONSE

The Department's Office of Energy Efficiency and Renewable Energy concurred with the
report's recommendations and stated that during on-site monitoring visits, it would continue to
assess the progress towards implementing these and other program improvements. The
Department's comments are responsive to our recommendations.

EXAMINATION-LEVEL ATTESTATION

Lopez and Company, LLP conducted its examination in accordance with attestation standards
established by the American Institute of Certified Public Accountants as well as those additional
standards contained in Government Auditing Standards, issued by the Comptroller General of the
United States. The examination-level procedures included gaining an understanding of Dayton's
policies and procedures and reviewing applicable Weatherization Program documentation. The
procedures also included an analysis of inspection results, records of corrective actions, and re-
inspections of completed homes/units to ensure any failures were properly corrected. Finally, an
analysis of associated cost data was conducted to test the appropriateness of payments.

The OIG monitored the progress of the examination and reviewed the report and related
documentation. Our review disclosed no instances where Lopez and Company, LLP did not
comply, in all material respects, with the attestation requirements. Lopez and Company, LLP is
responsible for the attached report dated September 23, 2011, and the conclusions expressed in
the report.

Attachment

cc: Deputy Secretary
    Associate Deputy Secretary
    Acting Under Secretary for Energy
    Chief of Staff
                                                                 IG Report No. OAS-RA-11-18


                             CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the back
of this form, you may suggest improvements to enhance the effectiveness of future reports.
Please include answers to the following questions if they are applicable to you:

   1. What additional background information about the selection, scheduling, scope, or
      procedures of the audit would have been helpful to the reader in understanding this
      report?

   2. What additional information related to findings and recommendations could have been
      included in the report to assist management in implementing corrective actions?

   3. What format, stylistic, or organizational changes might have made this report's overall
      message more clear to the reader?

   4. What additional actions could the Office of Inspector General have taken on the issues
      discussed in this report which would have been helpful?

   5. Please include your name and telephone number so that we may contact you should we
      have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Felicia Jones at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:


                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

      Your comments would be appreciated and can be provided on the Customer Response Form.
